<html>
<title> - EXAMINING THE CONSTITUTIONALITY AND PRU- DENCE OF STATE AND LOCAL GOVERNMENTS ENFORCING IMMIGRATION LAW</title>
<body><pre>[Senate Hearing 112-914]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-914
 
    	     EXAMINING THE CONSTITUTIONALITY AND PRU-
    	       DENCE OF STATE AND LOCAL GOVERNMENTS 
    	       ENFORCING IMMIGRATION LAW

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      REFUGEES AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 24, 2012

                               __________

                          Serial No. J-112-72

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
 
                            U.S. GOVERNMENT PRINTING OFFICE
91-385 PDF                       WASHINGTON : 2014
         
  ______________________________________________________________________________________________       
         For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). 
 E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4027302f002335333428252c306e232f2d6e">[email&#160;protected]</a>  

         
         

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

       Subcommittee on Immigration, Refugees and Border Security

                   CHUCK SCHUMER, New York, Chairman
PATRICK J. LEAHY, Vermont            JOHN CORNYN, Texas
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa
DICK DURBIN, Illinois                ORRIN HATCH, Utah
AL FRANKEN, Minnesota                JON KYL, Arizona
RICHARD BLUMENTHAL, Connecticut      JEFF SESSIONS, Alabama
               Stephanie Martz, Democratic Chief Counsel
                 Matt Johnson, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Schumer, Hon. Chuck, a U.S. Senator from the State of New York...     1
Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     4
    prepared statement...........................................    36
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  prepared statement.............................................    38

                               WITNESSES

Witness List.....................................................    35
Pearce, Russell, President, BanAmnestyNow.com, Mesa, Arizona.....     7
    prepared statement...........................................    41
DeConcini, Dennis W., Partner, DeConcini, McDonald, Yetwin & 
  Lacy, P.C., Tucson, Arizona....................................     8
    prepared statement...........................................    69
Gallardo, Hon. Steve M., Arizona State Senator, Phoenix, Arizona.    11
    prepared statement...........................................    74
Landfried, Todd, Executive Director, Arizona Employers for 
  Immigration Reform, Phoenix, Arizona...........................    13
    prepared statement...........................................    77

       MISCELLANEOUS ADDITIONAL MATERIAL SUBMITTED FOR THE RECORD

American Civil Liberties Union, Washington, DC, statement........    91
Giovagnoli, Mary, Director, American Immigration Council, 
  Washington, DC, letter.........................................   107
Rights Working Group, Margaret Huang, Executive Director, 
  Washington, DC, statement......................................   108
Young, Ambassador Johnny, Executive Director, Migration and 
  Refugee Services, U.S. Conference of Catholic Bishops, 
  Washington, DC, statement......................................   119


    EXAMINING THE CONSTITUTIONALITY AND PRUDENCE OF STATE AND LOCAL 
                 GOVERNMENTS ENFORCING IMMIGRATION LAW

                              ----------                              


                        TUESDAY, APRIL 24, 2012

                                       U.S. Senate,
             Subcommittee on Immigration, Refugees,
                                       and Border Security,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room G-50, Dirksen Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Subcommittee, presiding.
    Present: Senators Schumer and Durbin.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Chairman Schumer. Good morning, everyone. The hearing will 
come to order.
    At today's hearing we will be discussing the 
constitutionality and prudence of the many State and local 
immigration laws enacted during the past few years. In 2011 
alone, State legislators from across the country introduced 
1,607 bills and resolutions relating to immigration. By the end 
of the year, 42 States had enacted 197 new laws.
    Tomorrow the Supreme Court is going to be considering 
whether the Arizona law, known as SB 1070, is constitutional. 
Specifically, the Court will be deciding if States can enact 
comprehensive immigration enforcement laws designed to promote 
the self-deportation of illegal immigrants. Five States--
Alabama, Georgia, Indiana, South Carolina, and Utah--have 
crafted laws following Arizona's example. Court challenges have 
been filed against all five of those laws, and the outcome of 
those cases will likely be dictated by the Supreme Court's 
decision in the Arizona case.
    Discussing both the constitutionality and prudence of these 
laws is necessary because the Supreme Court will base its 
decision upon what the Senate had previously said about the 
role of State and local government in enforcing federal 
immigration law.
    The wisdom of the Arizona law is also currently being 
debated around the country. For instance, SB 1070 has recently 
been endorsed as a model for the country by Mitt Romney, the 
Republican nominee for President. Others such as Marco Rubio 
have said they do not believe the Arizona law should be 
expanded nationwide. In my view, these State laws are both 
counterproductive and unconstitutional.
    In terms of being counterproductive, the statistics could 
not be any clearer in terms of the economic damage these laws 
cause. In Arizona, studies have shown that after SB 1070 was 
passed, the convention and tourism industries lost as much as 
$140 million. Moreover, the agriculture industry has seen much 
of its crops destroyed due to a lack of labor. In Alabama, a 
study by the University of Alabama found that the Alabama law 
is projected to shrink Alabama's economy by at least $2.3 
billion annually and cost the State $70,000 per year--sorry, 
70,000 jobs per year.
    In terms of being unconstitutional, our Founding Fathers 
gave Congress plenary power over immigration law. The Supreme 
Court has consistently interpreted the naturalization language 
in Article I to mean that the establishment of the immigration 
laws and their manner of execution are committed solely to the 
Federal Government. Even though some on the other side want to 
limit the Federal Government's power and increase the power of 
the States, immigration is not and never has been an area where 
States are able to exercise independent authority. This makes 
sense, both legally as a matter of constitutional 
interpretation and practically as a matter of sound public 
product.
    Immigration involves international commerce and sensitive 
foreign relations. Just as we would never allow 50 States to 
have their own inconsistent and independent trade laws, we 
should not have 50 States establishing and enforcing their own 
inconsistent immigration laws. And even if States like Arizona 
say they are only helping the Federal Government to enforce the 
law, this issue is much like federal tax law where the Federal 
Internal Revenue Service interprets and enforces the law as 
opposed to 50 State agencies going to people's houses to ensure 
that they have properly filed their federal tax returns.
    Only federal comprehensive immigration reform can 
accomplish the three objectives most Americans want to see 
achieved with regard to immigration: first, ending illegal 
immigration; second, fixing our dysfunctional legal immigration 
system; and, third, addressing the status of people here 
without legal status.
    In 2010, many of my Democratic colleagues on this Committee 
released a white paper with me outlining our proposal for 
immigration reform. Then, as a good-faith downpayment to 
encourage negotiations with those who said fix the border 
first, we passed a $600 million supplemental Border Security 
Act that added 1,500 troops on the border, deployed more 
unmanned aerial drones, and increased border fencing and 
technology. The border bill was hailed by my Arizona colleagues 
as a significant border security accomplishment that they were 
proud to cosponsor. As a result of this bill, Arizona's 373-
mile border with Mexico is now patrolled by over 5,200 Border 
Patrol agents and 300 National Guardsmen, a 31 percent increase 
from 2008, which has resulted in a 61 percent reduction in 
unlawful border crossing over the same period. And yesterday, a 
Pew Hispanic Center study reported that immigration from Mexico 
has dropped to net zero when comparing the number of people 
entering the U.S. from Mexico to the number of people returning 
to Mexico.
    Some in Arizona might wish to take credit for this, but the 
study shows this is a national trend based on increased federal 
enforcement at the southern border and decreased availability 
of jobs for foreign workers. And this chart reveals immigration 
to the U.S. from Mexico. It is national. And because of what we 
have done on the border, as you can see, the number has gone 
significantly down from a high of 770,000 people in 2002, now 
140,000 people in 2010. That is a dramatic drop.
    We have repeatedly invited our Republican colleagues to sit 
down with us and discuss how best to reform our broken 
immigration system in a manner both parties can support. It 
will only pass if it is bipartisan. To this date, our 
colleagues will not even sit down with us and discuss 
comprehensive immigration reform legislation.
    Finally, when small, noncontroversial immigration matters 
are proposed that can help create jobs, they are blocked in the 
Senate. Consequently, States are now taking matters into their 
own hands and are passing a multitude of immigration laws that 
touch upon a variety of subjects, such as employment 
authorization and verification, border security, work visas, 
and higher education--areas that have always been the exclusive 
province of the Federal Government.
    I believe it is simply too damaging to our economy and too 
dangerous to our democracy to have 50 States doing 50 different 
things with regard to immigration policy. I also believe that 
Congress has clearly and repeatedly indicated its intent to 
preempt States from creating their own immigration enforcement 
regimes, which is why I believe SB 1070 and laws like it are 
unconstitutional.
    For instance, in 1997, Congress passed Section 287(g) of 
the Immigration and Nationality Act, which allows State and 
local law enforcement to enter into partnerships with ICE to 
conduct immigration enforcement within their jurisdictions. In 
enacting 287(g), Congress made it clear it did not want the 
States, like Arizona, taking immigration enforcement matters 
into their own hands and instead wanted State officials to act 
with guidance, training, and supervision of the Federal 
Government.
    In addition, Congress explicitly wrote employment 
verification laws that were designed to punish employers rather 
than employees for violations of immigration law. Arizona, by 
contrast, has decided to criminalize the individuals who seek 
work to feed their families. This conflict of law plainly 
contravenes our stated intent in passing numerous federal 
immigration workplace statutes.
    I am, therefore, announcing that, should the Supreme Court 
choose to ignore these plain and unambiguous statements of 
Congressional intent and uphold SB 1070, I will introduce 
legislation that will reiterate that Congress does not intend 
for States to enact their own immigration enforcement schemes.
    My legislation will re-emphasize that State officials can 
only engage in the detection, apprehension, and detention of 
unlawfully present individuals if they are doing so pursuant to 
an explicit agreement with the Federal Government and are being 
supervised and trained by federal officials. States like 
Arizona and Alabama will no longer be able to get away with 
saying they are simply ``helping the Federal Government'' to 
enforce the law when they are really writing their own laws and 
knowingly deploying untrained officers with a mission of 
arresting anyone and everyone who might fit the preconceived 
profile of an illegal immigrant.
    My legislation will also re-emphasize that State and local 
governments are preempted from enacting their own employment 
verification laws and penalties. Federal preemption of 
employment verification laws has been endorsed by the U.S. 
Chamber of Commerce and many other business groups and trade 
associations. And I hope colleagues from both sides of the 
aisle will join me in this effort in the event it becomes 
necessary, which I hope and believe it will not because I do 
believe the Supreme Court will decide that SB 1070 is not 
constitutional based on the evidence that is all on one side 
here.
    I now would like to turn it over to Senator Durbin for an 
opening statement.

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Mr. Chairman, thank you very much for 
calling this hearing of the Immigration Subcommittee on the 
question of SB 1070, the Arizona immigration law, which I join 
you in hoping that the Supreme Court finds unconstitutional. 
Under our Constitution, States do not have the right to pass 
their own laws preempting Federal laws on immigration.
    It is wrong and counterproductive to criminalize people 
because of their status, their immigration status. Law 
enforcement, incidentally, does not have the time or resources 
to prosecute or incarcerate every undocumented immigrant. The 
Arizona immigration law will simply deter undocumented 
immigrants from being part of the community and cooperating 
with law enforcement where necessary.
    Do not take my word for it. Ask the Arizona Association of 
Chiefs of Police who oppose SB 1070.
    There is another troubling aspect of the Arizona 
immigration law. According to experts, this law encourages 
racial profiling. Last week, I held a hearing on racial 
profiling, the first one in 10 years on Capitol Hill. We heard 
testimony about the provision in this law, Arizona's 
immigration law, requiring police officers to check the 
immigration status of any individual if they have ``reasonable 
suspicion'' that the person is an undocumented immigrant. The 
explanation of the law went further to say how you can gather 
this notion of reasonable suspicion, and it went on to say by 
the way a person dresses or by their command of the English 
language.
    Now, one of the witnesses at this racial profiling hearing 
was Ron Davis. He is the chief of police of East Palo Alto, 
California. Chief Davis, an African American, along with 16 
other chief law enforcement officers and the Major Cities 
Chiefs of Police Association, filed a brief in the Arizona case 
before the Supreme Court. This is what they said: ``The 
statutory standard of `reasonable suspicion' of unlawful 
presence in the United States will as a practical matter 
produce a focus on minorities, and specifically Latinos.''
    Now, instead of measures that hurt law enforcement and 
promote racial profiling, like SB 1070, we need practical 
solutions to fix our broken immigration system. I could not 
agree with my colleague Senator Schumer more. Congress needs to 
face its responsibility to pass immigration reform.
    Eleven years ago, I introduced the DREAM Act. This 
legislation would allow a select group of immigrant students 
who grew up in this country, came here as infants and children, 
but would give them a chance to earn their way to citizenship 
by attending college or serving in the military. Eleven years 
we have been struggling to pass this. We have had majority 
votes on the Senate floor but never the magic 60 number that we 
need to pass it.
    The best way, I have said to my colleagues, to understand 
what the DREAM Act is about is to get to meet the young people 
who would qualify for this legislation. As Senator Rubio of 
Florida has said, ``Let us let these young people get right 
what their parents got wrong.'' These people call themselves 
``Dreamers.'' Under the Arizona law, SB 1070, these young 
people would be targets for prosecution and incarceration. Why? 
It is beyond reasonable suspicion. They have stood up and said, 
``We are undocumented, we are DREAM students. We want a chance 
to become American citizens.'' Under the DREAM Act, they would 
be future citizens who would make our country a better place.
    I want you to meet six targets of this bill, the Arizona 
immigration law. Each and every one of them is a resident of 
Arizona. They have stepped up publicly to tell their stories 
about being brought to the United States by their parents as 
infants and children, now begging for a chance to earn their 
way to legal status and citizenship.
    The first, Dulce Matuz. She graduated from Arizona State 
University with a bachelor's degree in electrical engineering. 
She co-founded the Arizona DREAM Act Coalition, an organization 
of more than 200 DREAM Act students. Last week, Dulce was named 
one of the 100 Most Influential People in the World by Time 
Magazine. Dulce Matuz is a target of the Arizona immigration 
law.
    Now meet Mayra Garcia. She is president of the Cottonwood 
Youth Advisory Commission in her hometown of Cottonwood, 
Arizona. She graduated from high school in 2010 with a 3.98 
GPA. She is now a sophomore at a prestigious university in 
California. She would be a target of the Arizona immigration 
law.
    Now meet Juan Rios. In high school, Juan was a leader in 
the Air Force Junior ROTC. In 2010, he graduated from Arizona 
State University with a degree in aeronautical engineering. 
Since graduation, Juan has put his life on hold. Because of 
American law, he cannot enlist in our military or work in the 
aerospace industry. Juan is a target of the Arizona immigration 
law.
    Now meet Jose Magana. Jose graduated as valedictorian of 
his high school. At Arizona State University, he joined the 
speech and debate team, where he ranked fifth in the Nation. In 
2008, Jose graduated summa cum laude with a major in business 
management from Arizona State University. Later this year, Jose 
will graduate from Baylor University Law School in Waco, Texas. 
He cannot be licensed to practice law in the United States 
because he has no country. Jose is a target of the Arizona 
immigration law.
    Finally, meet Angelica Hernandez. In high school, she 
served in Junior ROTC and was president of the National Honor 
Society. Last year, she graduated from Arizona State University 
as the Outstanding Senior in the Mechanical Engineering 
Department. Angelica is a target of the Arizona immigration 
law.
    Unlike the Arizona immigration law, the DREAM Act is a 
practical solution to a serious problem which treats these 
young people and thousands of others in a humane and just way. 
SB 1070 would harm law enforcement and encourage racial 
profiling, going after the very people that you have just met. 
That is not consistent with our values as a Nation. It is not 
consistent with our constitutional values.
    Mr. Chairman, thank you for this hearing.
    [The prepared statement of Senator Durbin appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Senator Durbin, for an 
excellent and heartfelt statement.
    Having no other people here, we will turn to our panelists. 
I am going to introduce each of them. Their entire statements 
will be read into the record, and then we will let each of them 
make a statement.
    Russell Pearce is currently the president of 
BanAmnestyNow.com, an organization advocating for increased 
immigration enforcement and border security. He was the former 
president of the Arizona State Senate, a position he held until 
November 2011. He is most widely known as the author of SB 
1070, the Arizona law whose constitutionality is being decided 
by the Supreme Court and that is the subject of this hearing 
today. He was originally elected to the Arizona House of 
Representatives in 2000 and the Arizona Senate in 2008. He also 
served as the director of Arizona's Motor Vehicle Division, the 
director of the Governor's Office of Highway Safety, and as a 
deputy for 23 years with the Maricopa County Sheriff's Office.
    Dennis DeConcini served as U.S. Senator for Arizona for 18 
years, from 1977 to 1995. Prior to that, he served as Pima 
County attorney, the chief prosecutor and civil attorney for 
the county and school districts within the Tucson border area. 
He currently serves as a partner in the law firm of DeConcini, 
McDonald, Yetwin & Lacy, with offices in Tucson, Phoenix, and 
Washington, D.C.
    State Senator Steve Gallardo is a member of the Arizona 
State Senate representing District 13. He previously served in 
the Arizona House of Representatives from 2003 through 2009. He 
has served on numerous State and local boards and committees 
and is the leading sponsor of the State Senate bill, Arizona 
State Senate bill, that would repeal SB 1070.
    Todd Landfried is the executive director of Arizona 
Employers for Immigration Reform, a grassroots organization 
comprised of 400 small, medium, and large businesses committed 
to sensible federal immigration policy. Mr. Landfried's 
organization filed an amicus brief with the U.S. Supreme Court 
in opposition to SB 1070.
    Gentlemen, your entire statements will, without objection, 
be read into the record, and we will first call on Mr. Pearce. 
You may proceed as you wish, sir.

  STATEMENT OF RUSSELL PEARCE, PRESIDENT, BANAMNESTYNOW.COM, 
                         MESA, ARIZONA

    Mr. Pearce. Good morning. I am Russell Pearce, the author 
and driving force behind SB 1070, which is overwhelmingly 
supported by citizens across this Nation. Thank you, Chairman 
Schumer, for inviting me here before this honorable Committee. 
It is an honor for me to appear. As you know, the illegal alien 
problem is a critical issue, not just in Arizona but across 
this Nation, and the effects of it ripple throughout society.
    In addressing this problem, we must begin by remembering 
that we are a Nation of laws. We must have the courage, the 
fortitude, to enforce, with compassion but without apology, 
those laws that protect the integrity of our borders and the 
rights of our citizens from those who break our laws. SB 1070 
removes the political handcuffs from law enforcement. All law 
enforcement agencies have the legal authority and moral 
obligation to uphold our laws, just like Sheriff Joe, who keeps 
his oath and does the job he was hired to do.
    The invasion of illegal aliens we face today--convicted 
felons, drug cartels, gang members, human traffickers, and even 
terrorists--pose one of the greatest threats to our Nation in 
terms of political, economic, and national security.
    During the debate of SB 1070, a rancher friend of mine, Rob 
Krentz, was murdered on the border by an illegal alien. I have 
attended the funerals of citizens and law enforcement officers 
murdered by illegal aliens. I have a son, a deputy sheriff, who 
was critically wounded in the line of duty in a gun battle with 
an illegal alien while serving a warrant. I, too, was 
critically wounded, shot in the chest and hand in the line of 
duty. I have seen the real costs and damage caused by the 
presence of illegal aliens in this country.
    In Arizona alone, the annual cost of the illegal 
immigration problem is approximately $2.6 billion; that is just 
to educate, medicate, and incarcerate. And those numbers do not 
reflect the costs of crimes committed by those here illegally 
or the jobs lost by residents.
    The terrorist attacks of September 11, 2001, underscored 
for all Americans the link between immigration, law 
enforcement, and terrorism. Four of the five leaders of the 9/
11 attack were in violation of our immigration laws and had 
contact with law enforcement but were not arrested. The failure 
to enforce U.S. immigration laws was instrumental in the deaths 
of nearly 3,000 people on that tragic day in America.
    Under federal law, sanctuary policies are illegal, but the 
Obama administration does not sue those cities that adopt such 
illegal policies. Instead, it chooses to sue Arizona for 
enforcing the law, protecting its citizens, protecting jobs for 
lawful residents, and protecting the taxpayers and the citizens 
of this Republic in attempting to secure our borders.
    During my 11 years in Arizona Legislature, I authored 
numerous legislative initiatives designed to protect the State 
of Arizona from the adverse effects of illegal immigration and, 
most importantly, to uphold the rule of law. They include: in 
2004, voter ID at the polls, passed by 57 percent of the 
voters; in 2006, a constitutional amendment denying bond to 
illegal aliens who commit serious crime, passed by 78 percent 
of the voters, 60 percent of Hispanics; also in 2006, illegal 
aliens who sue an American citizen cannot receive punitive 
damages, passed by 75 percent of the voters; in 2007, 
protecting American jobs and honest employers by mandating the 
use of e-verify for every business in the State of Arizona.
    I am also proud to say that each of these initiatives has 
become law and survived the various legal challenges. In fact, 
the last time I was in Washington, the Supreme Court upheld the 
e-verify law against the unpatriotic challenge by the Chamber 
and the Obama administration.
    Because most provisions of SB 1070 are in effect, the 
citizens of Arizona are safer. According to the Phoenix Law 
Enforcement Association, which represents the rank-and-file 
police officers, and I quote, ``Since SB 1070, Phoenix has 
experienced a 30-year low crime rate. Six hundred police 
vacancies, budget cuts, and old policing strategies did not 
bring about these falling crime rates. SB 1070 did . . . .The 
deterrence factor this legislation brought about was clearly 
instrumental in our unprecedented drop in crime. And all of 
this without a single civil rights, racial profiling, or biased 
policing complaint.''
    Simply put, SB 1070 has clearly worked, and Arizona has 
acted within its authority. The Supreme Court has held the 
States can utilize their inherent police powers to enforce 
immigration laws. SB 1070 directs Arizona law enforcement 
officers to cooperate and communicate with federal authorities 
regarding enforcement of federal immigration laws and imposes 
penalties under Arizona law for non-compliance.
    It is only these simple and clear law enforcement measures 
that are before the Supreme Court. This common-sense law is 
fully within the authority of Arizona as it protects the 
citizens from the effects of illegal immigration and upholds 
the rule of law. And protecting our citizens is the highest 
duty of any public official.
    Thank you, God bless, and may God continue to bless this 
Republic.
    [The prepared statement of Mr. Pearce appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mr. Pearce.
    Next we will go to Senator DeConcini.

STATEMENT OF DENNIS W. DECONCINI, PARTNER, DECONCINI, McDONALD, 
              YETWIN & LACY, P.C., TUCSON, ARIZONA

    Mr. DeConcini. Mr. Chairman and Senator Durbin, I want to 
thank you very much for the opportunity to address this very 
important issue not only to my home State of Arizona but to our 
Nation. The constitutionality and prudence of federal 
immigration laws being enforced by State and local governments 
is indeed a complex issue.
    Mr. Chairman, I am a native Arizona resident. I grew up in 
that State. I came from neighborhoods and a business and had a 
law practice with a multitude of Hispanic and Mexican friends, 
investors, and what have you. We worked together. We shared 
each other's heritage and experiences. The culture of our State 
reflects the rich history of the Latino influence. But during 
the last two years, Mr. Chairman, we have unduly harmed our 
legal Latino residents in this process: Unfortunately the 
solution to the problem of people coming into this country 
illegally, we have let rhetoric and political advantage cloud 
sound judgment.
    Mr. Chairman, this hearing partly is about 1070, and maybe 
mostly, seeing that the Supreme Court will address it tomorrow. 
I believe SB 1070 is ill-founded, mean-spirited, and divisive. 
In addition, it requires State and local law enforcement to 
carry out immigration responsibilities that lie with the 
Federal Government clearly.
    Prior to being elected to the U.S. Senate in 1976, as the 
Chairman pointed out, I was the Pima County attorney. During 
that time, I was appointed by Governor Raul Castro to head the 
Arizona Drug Control District because of the tremendous drug 
trafficking problem we had along our border with Mexico. The 
creation of this Drug Control District did not create laws that 
contradicted federal responsibility. It was a cooperative 
effort put together by the legislature, a Republican 
legislature, to address the problem in accordance with the 
cooperation of the federal agencies, and we did just that. I 
mention this because there is some similarity to the illegal 
immigration issue, but laws need to be formulated in 
cooperation but not hostile to each other.
    When I came to the Senate, I was appointed to this august 
Committee, the Judiciary Committee, and the Committee on 
Appropriations. Both had jurisdiction over Border Patrol, 
Customs, and the General Services Administration. I used all 
the jurisdictions to focus law enforcement resources on the 
U.S. southwest border along with my many colleagues at the 
time, including some not from border States, like Alan Simpson 
and Mark Hatfield of Oregon. We worked in a bipartisan effort.
    I participated as a Member of the Select Committee on 
Immigration and Refugee Policy along with my friends Strom 
Thurmond, Alan Simpson, and Ted Kennedy. The Committee issued a 
report in 1981 which led to the passage of a comprehensive 
immigration reform bill during President Reagan's 
administration. Let me remind everyone, President Reagan 
supported that bill and the setting of a date to grandfather 
those in this country who were here illegally with a pathway to 
citizenship if they did not have a criminal record. I continue 
to work hard to see that this happens and occurs.
    Many ask why our efforts did not work way back in 1981, and 
there is an answer. We did not secure the borders even though 
we passed comprehensive immigration reform.
    Former Senator Pete Domenici and I chaired the 
Appropriations Committee, and we constantly added earmarks--
sorry to use that word here in this august body today--but we 
added money that was not in the budget, and often it was taken 
out for other reasons.
    At that time, the Congress and the public just was not 
focusing on the severity of the border problems. When I left 
the Senate, the number of Border Patrol agents had increased 
from approximately 4,000 in 1995 well over 21,000 today, as the 
Chairman points out, with over 5,000 agent deployed to the 
Arizona border.
    So those who say the Federal Government has not done its 
job in ensuring border security are wrong. I was in Congress 
from 1977 to 1995. I can tell you the Federal Government in 
recent years has made heroic efforts to secure our borders. It 
started under the previous administration, a Republican 
administration, and continues now with such programs as Secure 
Communities.
    We are called here today to debate the merits and the 
constitutionality of 1070. I believe it is unconstitutional for 
many of the reasons the Chairman pointed out, which I will not 
reiterate. Having worked with law enforcement officers much of 
my life, I know this law puts law enforcement in an untenable 
position. Police officers are trained to profile behavior--
behavior--not people. This law does the opposite. It profiles 
people. If you have brown skin in my State, you are going to be 
asked to prove your citizenship. The law has bad consequences. 
Let me play a clip here of an individual, and it will show you 
just exactly what I am talking about. This was taken just a few 
days after the bill passed both Houses and right before the 
Governor signed it.
    Would you play the clip, please?
    [Videotape played.]
    Mr. DeConcini. Mr. Chairman, thank you for taking the extra 
time to view this video. This may have been unintended 
consequences, as they say, but this is what has happened to 
many in my State. This is not just one example that jumps out 
at you.
    Let me just give you one more quick one. Some statewide 
political leaders and county elected officials say that as a 
direct result of undocumented people coming into our State, 
horrific crimes have been caused, such as beheadings in the 
desert of Arizona along our border; that terrorists are 
sneaking in. There is no proof to this. These examples have 
turned out to be totally false, including those made by our 
Governor, who had to retract them about the beheadings found in 
the desert.
    But this demonstrates how political this issue has become. 
It has not been about creating law enforcement solutions to 
secure our borders from criminals or about deportation of those 
with criminal records--which by the way is a minor percentage 
of those illegals who commit the crimes here. I could go on and 
tell you a lot of different stories because I talk to a lot of 
different people.
    Finally, let me ask: Who is the target of 1070? As Senator 
Durbin pointed out, if anyone tells you it is only the drug or 
gun-trafficking criminals, they are mistaken. SB 1070 targets 
those with brown skin, and in my State those are my neighbors, 
my friends, and successful business associates. I have been in 
law enforcement and the U.S. Senate when we could fix this law, 
and we fixed part of it, and now 1070 has taken us in the wrong 
direction.
    As a legislator, I know--and as law enforcement--that 
whenever you mix politics and law enforcement, you create a 
toxic environment, and that is what has happened in my State of 
Arizona.
    Thank you, Mr. Chairman. I apologize for being longer than 
anticipated.
    [The prepared statement of Mr. DeConcini appears as a 
submission for the record.]
    Chairman Schumer. No problem. Thank you, Senator DeConcini.
    And now we will hear from Senator Gallardo.

  STATEMENT OF HON. STEVE M. GALLARDO, SENATOR, ARIZONA STATE 
                    SENATE, PHOENIX, ARIZONA

    Mr. Gallardo. Thank you. Mr. Chairman and Members. For the 
record, my name is Steve Gallardo. I am a State Senator from 
Arizona representing District 13. It is my privilege to have 
the opportunity to give my perspective and experience regarding 
Arizona's Senate bill 1070.
    Mr. Chairman and Members, Senate bill 1070 has perpetuated 
a climate of fear and division within the State of Arizona. 
Without any doubt, Senate bill 1070 has done Arizona and her 
people a great disservice and has done nothing to secure the 
borders or resolve any of our immigration problems.
    Arizona law has unfortunately subjected Latino citizens to 
racial profiling and harassment.
    The following situations will illustrate how Senate bill 
1070 has negatively affected the lives of many Latinos 
throughout the State of Arizona.
    Senate bill 1070 has created racial tension and distrust 
between Latinos and law enforcement as well as Latinos and non-
Latino neighbors.
    I will give you an example: The tragic death of Juan 
Varela, a United States citizen who was murdered in front of 
his home by his neighbor, Gary Kelley, just 13 days after 
Governor Brewer signed Senate bill 1070 into law. Right after 
the bill was signed into law, Gary Kelley yelled racial slurs: 
``Go back to Mexico. If you do not go back to Mexico, you are 
going to die.'' Before long, Gary Kelley pointed his .38 
revolver at Juan Varela and shot him in the face. Mr. Varela 
died in the front of his home. He leaves a wife and a 13-year-
old daughter.
    Senate bill 1070 has made Latinos the target of criminals 
because Latinos are less likely to report crimes to local law 
enforcement for fear of having themselves deported or even a 
loved one deported.
    Many Latina women face nightmare situations if they are 
victims of domestic violence. Because of Senate bill 1070, many 
of these women are placed in the position where they cannot 
report their abuser in fear of getting deported. In some cases, 
these women are held hostage in their own home. Mr. Chairman 
and members, no woman, regardless of immigration status, should 
ever be placed in harm's way.
    Senate bill 1070 has shifted the priorities of law 
enforcement to focus its attention away from the criminal 
investigations and placed squarely on local law enforcement, 
immigration enforcement. This comes at the expense of rape, 
assault, and murder victims.
    Most recently, the Maricopa County Sheriff's Office has 
come under fire for their failure to investigate 400 sexual 
assault cases. Many of these cases involve children. Maricopa 
County Sheriff's Office focuses their attention on immigration 
enforcement.
    Senate bill 1070 and laws like it have fostered and 
legitimized vigilante movements responsible for violent and 
sometimes lethal attacks on Latinos. Here is another example.
    The case of nine-year-old Brisenia Flores and her father, 
Raul, who were killed at the hands of Shawna Forde and Jason 
Bush--all members of the Minutemen Defense organization in 
Arizona. The Flores were murdered in their own home as they 
were being robbed. Brisenia Flores was nine years old when she 
pleaded for help and was shot dead in her home.
    If Senate bill 1070 has been successful in anything, Mr. 
Chairman, it has been successful in breaking up families by 
separating hard-working immigrant parents from their children 
and limiting the success of our Latino students.
    These parents and children live in fear every day, fear of 
being separated from each other. It is a common practice of 
parents to teach their children a phone number of a family 
member that they can trust in the event that the parents get 
swept away in one of Sheriff Joe Arpaio's raids in Phoenix.
    Mr. Chairman and Members, the State of Arizona has dealt 
with a lot of anti-immigration type legislation. The most 
recent was a ballot initiative that preceded Senate bill 1070 
requiring undocumented students to pay out-of-State tuition. 
The DREAM Act has been exactly that--only a dream. I use my 
Carl Hayden High School Robotics Team in my district, a source 
of pride in my legislative district, a school team that has 
beaten teams all over the world, including the Massachusetts 
Institute of Technology. If it was not for their immigration 
status, these students would have unlimited promise.
    Unfortunately, laws like Senate bill 1070 pander to a 
climate of fear and division that run rampant through the State 
of Arizona. Mr. Chairman, this fear was created for a purpose.
    Mr. Chairman and Members, I would submit to you that Senate 
bill 1070's true intention, its primary objective, is to make 
second-class citizens of U.S. Latinos, to discourage them from 
voting, from going to school, seeking employment, and realizing 
the American dream.
    Immigration enforcement is only a secondary objective. By 
their own admission, the authors and sponsors of Senate bill 
1070 intend to harass immigrants, to create a hostile and 
miserable environment so that immigrants would choose to 
``self-deport.'' They show no regard for the civil rights 
abuses of U.S. Latino citizens.
    This by its very nature defines their strategy as reckless 
and abusive. Senate bill 1070 is neither an immigration policy 
nor a legal position but, rather, a campaign of harassment and 
intimidation directed solely on the person's complexion.
    Finally, the prime sponsor of Senate bill 1070 will try to 
give you some rationale for the chaos of this legislation. 
However, I would submit to you that any effort to justify 
profiling, harassment, or oppression of anyone is un-American, 
illegal, and unconstitutional on its face.
    Mr. Chairman and Members, I would pray you see the wisdom 
of passing legislation preempting States from addressing and 
enforcing immigration laws and put emphasis on passing 
comprehensive immigration reform, specifically the priority of 
passing the DREAM Act for the students not only in the State of 
Arizona but across this great country.
    Mr. Chairman and Members, these are my comments, and I 
respectfully submit them.
    [The prepared statement of Mr. Gallardo appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Senator Gallardo.
    Mr. Landfried, you may proceed.

   STATEMENT OF TODD LANDFRIED, EXECUTIVE DIRECTOR, ARIZONA 
       EMPLOYERS FOR IMMIGRATION REFORM, PHOENIX, ARIZONA

    Mr. Landfried. Thank you, Mr. Chairman, for inviting me to 
speak today. For the record, my name is Todd Landfried, and I 
am the executive director of Arizona Employers for Immigration 
Reform. AZEIR, as we refer to ourselves, was formed in 2007 and 
has approximately 400 small, medium, and large business 
members. We are not open borders, pro-illegal businesses 
addicted to cheap labor, nor do we put profits before 
patriotism. We know there are serious problems on the border, 
and people's lives are being affected, and the issue needs to 
be addressed. Businesses want legal and efficient access to the 
labor it needs when it needs it from wherever it must come, 
with little government interference or interaction as possible. 
Most importantly, we want you in Congress to solve the problem.
    My remarks will focus on whether laws like Arizona's Senate 
bill 1070 and others are good public policy based upon their 
impacts on business and the economy. By good public policy, I 
mean what are the outcomes? Did they secure the border? Did 
they create jobs and reduce State expenses? Did they fulfill 
their proponents' promises?
    It is a legitimate question, especially at a time when 
program accountability is so important. What is wrong with 
holding State-level immigration laws to the same scrutiny?
    In my written testimony, I have shown that this attrition 
through enforcement scheme has been tried before at the city, 
county, and State level going back to 2006. What has come from 
these past attempts? The short answer: Nothing good, unless 
your only goal is to make brown people move.
    After Oklahoma passed HB 1804 in 2007, the Oklahoma Bankers 
Association found the loss of 90,000 unauthorized workers and 
their families resulted in a $1.9 billion loss to the State's 
gross State product. The Urban Institute and the Migration 
Policy Institute found negligible savings on Oklahoma public 
services from the departure of the undocumented because they 
are ineligible for those benefits in the first place.
    A Georgia Restaurant Association survey found in November 
2011 that 71 percent of their members had labor shortages and 
estimates the average monthly sales losses due to the labor 
shortage was $21,000 per store.
    Georgia farmers told their Governor they needed 11,000 
workers to bring in that spring's fruit crop. Governor Deal 
offered up probationers as a solution, and on the first day, 11 
showed up. A week later, there were seven left. The losses that 
farmers encountered in 2011 was an estimated $391 million. One 
analyst said, ``We have turned good workers into criminals and 
turned criminals into bad workers, losing on both ends of the 
deal.'' Exactly.
    Alabama is rethinking HB 56; 25 percent of Alabama's 
construction workers have left the State, with few 
replacements. Towns like Russellville report sales tax revenue 
losses exceeding $8.5 million. Statewide losses in State income 
and sales tax collections are estimated to be between $56 
million and $264 million.
    Arizona continues to suffer. Total losses from 
cancellations and bookings for conferences and tourism were 
$394 million and a loss of 4,236 jobs. In fact, there is a 
chart in the back of my written testimony that highlights those 
losses.
    Foreign businesses and executives refuse to work in 
Arizona. The loss of 150,000 consumers from the Arizona economy 
resulted in an estimated decline in gross State product of 
$24.4 billion, or 9.6 percent, the loss of 291,000 direct and 
indirect jobs, and a resulting lost in tax revenue of $2.1 
billion. Do these sound like the effects of a good law?
    We were told Senate bill 1070 would bolster the economy and 
create jobs, yet history convincingly demonstrates exactly the 
opposite. If these laws are so good, then why are the impacts 
so bad? The answer is you have bad outcomes because you had bad 
inputs. Put bluntly, we are being misled by proponents who 
routinely distort data, exaggerate impacts, cherrypick 
statistics, and in many instances, make it all up.
    You heard testimony about how it supposedly costs Arizona 
$2.6 billion to educate, medicate, and incarcerate illegal 
aliens. The problem is that is not the whole story as it 
ignores financial contributions these workers make to the 
economy. Economic studies that consider both sides of the 
ledger show immigrants are a net benefit to Arizona of just 
under $1 billion.
    You heard 17 percent of Arizona's prisoners are illegal 
aliens when in reality it is impossible to know. Why? Because 
the Arizona Department of Corrections combines unauthorized 
inmates with those who are here legally into a category calls 
``criminal aliens.'' The latest number is 13.2 percent; 
therefore, the undocumented population must be lower.
    We are told because of Senate bill 1070 crime in Phoenix is 
at a 30-year low, yet there are no data from Phoenix P.D., the 
Department of Public Safety, or the FBI to back that up. That 
fact was reiterated in this morning's Arizona Republic.
    Mr. Chairman, nearly every statistic used to justify Senate 
bill 1070 has serious factual problems with it. Newspaper fact-
check researchers found that nine out of 10 immigration 
statements they checked, including some you heard today, are 
not the whole truth. I would encourage you to take a look at 
the four-plus gigabytes of reports and data on the DVD I 
provided to the Committee and educate yourself on the real 
facts.
    I am not saying all the concerns are illegitimate. I am not 
saying there are no costs. No one questions the serious issues 
of drugs and smuggling on the border. No one questions the 
security threats. No one denies there is an immigration 
problem. We can agree on all of this. But shouldn't we spend 
our time looking at solutions that might work rather than on 
one we know that does not?
    If you want to ask a question, it should be: What else have 
you got? It amazes me that, with this scheme's history of 
failure, Senate bill 1070 was the best idea they could come up 
with. Maybe it is because no other solutions were allowed to be 
heard and discussed. Fortunately, there are some great ideas 
for solving this problem, but you do not get to hear them 
because we are spending too much time arguing about Senate bill 
1070. We will discuss some of these solutions May 1st in the 
Rayburn Gold Room starting at 10 a.m. We have invited all 
Members of Congress. We hope your staff will attend.
    This continued fixation on Senate bill 1070 as some kind of 
viable solution when we know better is crazy. The Supreme 
Court's decision will do nothing to change the fact that it 
remains bad policy and bad law. Congress, however, can and must 
do something about that, and you should not waste any time 
getting started. That solution must deal with the demand for 
labor as well as and at the same time as border security. 
Nothing else will work.
    Thank you, Mr. Chairman and Members of the Committee, for 
your time and attention.
    [The prepared statement of Mr. Landfried appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mr. Landfried, and let me 
thank all of our panelists for this testimony, and now we will 
begin with questions.
    I am going to direct some first questions to you, Mr. 
Pearce. First, I want to thank you for coming because we do not 
agree. That is obvious. But you have had the courage and 
integrity to come here and defend your views, and that is very 
much appreciated.
    Okay. Now, I am interested in trying to understand the 
general context behind the Arizona law. You were on Fox News on 
July 29, 2010. You said your intent in writing Senate bill 1070 
was--and this is your quote--``to take the handcuffs off law 
enforcement, they will go home, they will self-deport.'' Do you 
still stand by that statement?
    Mr. Pearce. Yes, sir.
    Chairman Schumer. Okay. Now, some have said that the 
Arizona law is necessary because the Federal Government has not 
secured the border. But to be clear, even if the border were 
completely secure and the government could show that no new 
people are entering the country illegally, you would still want 
Senate bill 1070 to remain in effect to ensure that all of 
those who are already here without status either leave America 
or get apprehended or deported. Is that correct?
    Mr. Pearce. Mr. Chairman, can I give better than just a 
``yes'' to that?
    Chairman Schumer. Sure, yes.
    Mr. Pearce. Mr. Chairman, it is simply the rule of law. You 
know, we have laws, all kinds of laws. You are never going to 
get 100 percent compliance. We understand that. But laws 
without consequences are not laws at all. And I have heard some 
misinformation here today that is more disappointing. You know, 
if you will remember the case Muehler v. Mena in 2005, a 9-0 
landmark decision by the United States Supreme Court, it struck 
down a prior decision by the Ninth Circuit Court about the 
Fourth and Fourteenth Amendments of those that are here 
illegally and when you can ask and when you cannot, and they 
struck it down and said you can ask anytime. Those safeguards 
are not in the federal law, and the Supreme Court has upheld 
you can ask anytime.
    In Senate bill 1070, we prohibit racial profiling. In 
Senate bill 1070, we say you have to have a legitimate contact. 
In Senate bill 1070, we say you have to have reasonable 
suspicion. Those are the basic things taught in a police 
academy to every young recruit. Civil rights, you know, the 
proper respect and decorum of our citizens and those that we 
come in contact with.
    I find it very demeaning to law enforcement that we would 
assume that those kinds of things go on. You are always going 
to have exceptions to every law when you have thousands and 
thousands of arrests, Mr. Chairman.
    Chairman Schumer. Okay. Thank you.
    Mr. Pearce. But that is demeaning to our law enforcement 
community to make that. And I want to----
    Chairman Schumer. Go ahead, please.
    Mr. Pearce. If I might, sir, when you talk about the police 
chiefs not supporting Senate bill 1070, those that are 
appointed bureaucrats from open border mayors in most cases, 
what did support it is nine out of 15 sheriffs. Arizona Police 
Association, 10,000 officers, 23 agencies, Arizona cops, 6,000 
officers, the FOP, every single organization that represents 
boots on the ground supported Senate bill 1070 and worked with 
me to make sure that we created the kind of exceptions that 
they could make in doing their job when necessary. It is the 
rule of law, mirrors federal law. It is not--we did not 
regulate. That is an exclusive--exclusive--responsibility of 
the Federal Government, and I agree with you, Mr. Chairman, on 
that. But enforcement has never been the exclusive 
responsibility. We do not hear this about drug laws. We do not 
hear this about gun laws. We do not hear this about bank 
robbery or the other federal crimes that we enforce on a daily 
basis. States have always had--had Congress wanted to preempt 
the States from enforcing the law, they would have used their 
plenary powers. They have never done that. There has never been 
a preemption. It has always been a collaborative effort between 
local law enforcement and the Feds to secure this Nation, and 
that should always be our priority, the rule of law, dignified, 
compassionate, respectful, but not apologetic for enforcing our 
laws and securing our borders.
    Chairman Schumer. I appreciate that, and I wanted to give 
you the opportunity to state your whole case because, 
obviously, you are outnumbered here.
    Mr. Pearce. That is usually the case, Mr. Chairman.
    Chairman Schumer. Okay. Well, again, I appreciate your 
being here. But I do want to ask the question again, just if 
you could give me a yes or no answer on that.
    Mr. Pearce. Yes, sir.
    Chairman Schumer. Which is, if the border were completely 
secure, if the government could show and we would all agree 
that no new people are crossing the border, however that was 
accomplished, you would still want Senate bill 1070 to remain 
in effect so that the people who are already here without 
status would leave or be apprehended and deported. Is that 
right?
    Mr. Pearce. Mr. Chairman, I do not mean to be difficult. A 
yes or no answer does not----
    Chairman Schumer. Just give me your answer to that 
question.
    Mr. Pearce. Well, let me give the answer, because, again, 
we are a generous Nation. We have more people in this country 
than every other developed nation combined, legally. But, yes, 
the laws must be enforced, and with that number you talk about, 
there ought to be still arrest and deportation. The largest 
gangs in this country are made up of illegal aliens. The 
terrorists, the kidnappers, the human smugglers, the drug 
smugglers. You cannot ignore--you cannot just carve out a 
little section when you do these kind of things.
    Chairman Schumer. No, I appreciate that. But your answer is 
yes.
    Mr. Pearce. Yes.
    Chairman Schumer. Okay. In trying to promote self-
deportation, do you make any distinctions if the person has 
been in America for 20 years or has U.S. citizen children or 
was brought here as a minor through no fault of their own? The 
law does not make any distinctions among those types of people, 
right?
    Mr. Pearce. Mr. Chairman, federal law does not make any 
distinction. That is a regulatory function, not a function of 
the States.
    Chairman Schumer. Okay. Next question. Do you believe that 
many national political leaders agree with your policy of self-
deportation? Or do you think you have a minority view here even 
within your own party?
    Mr. Pearce. Mr. Chairman, I have a majority view. Senate 
bill 1070 is supported two to one from coast to coast across 
this Nation. After it was originally passed, 73 percent, a 
Rasmussen poll, 73 percent of Arizonans supported Senate bill 
1070. It is still by far the majority in favor of Senate bill 
1070. Thirty-four States I have had contact with, they have 
indicated their desire to pass 1070-like bills. It is----
    Chairman Schumer. So you believe it is a majority opinion 
of your party and of the country. Is that right?
    Mr. Pearce. By far the majority opinion of my party, but 
the majority opinion of America from coast to coast.
    Chairman Schumer. Thank you.
    I want to talk a little bit about racial profiling. There 
are many critics who say Senate bill 1070 is unconstitutional 
because it will lead to racial profiling of Latinos, Asians, 
and other groups. So I want to try to break down the law step 
by step with you to understand your thought process better 
because you are the author. No one knows this better than you.
    First, to be clear, as you said to several Arizona news 
outlets, March 5, 2012, you ``know why [SB 1070] was written 
and know every section of the bill. There is nobody better to 
explain this law to the Senate'' than you. Is that an accurate 
quote?
    Mr. Pearce. That is an accurate quote.
    Chairman Schumer. Okay. So let me go to Section 3B, known 
as the ``Stop and Arrest Section,'' whose language is behind 
me. You are familiar with that section, I presume. You wrote 
the law.
    Mr. Pearce. Yes, sir.
    Chairman Schumer. Okay. I want to show you a blow-up of the 
official training manual given to the Arizona police officers 
on Senate bill 1070. Behind me here on the screen are the 
factors the training says police may consider in developing a 
reasonable suspicion that a person is an illegal immigrant and 
needs to be checked. I am going to highlight a few. It says 
``in the company of other unlawfully present aliens.'' It says 
``the vehicle is overcrowded or rides heavily.'' It says 
``dress,'' and then it says ``demeanor, for example, unusual or 
unexplained nervousness, erratic behavior, refusal to make eye 
contact.''
    The one that arouses my curiosity and bothers me is dress. 
What does an illegal immigrant dress like? Why is dress listed 
in those factors?
    Mr. Pearce. Mr. Chairman, that was put together by AZ Post. 
I understand they worked in cooperation with ICE to develop the 
profile of those folks after making legitimate contacts.
    Chairman Schumer. But explain to me as the author, do you 
think dress is an appropriate----
    Mr. Pearce. This is--Mr. Chairman, this is not--this is 
from AZ Post. This is training material from AZ Post.
    Chairman Schumer. Yes.
    Mr. Pearce. Not a part of the bill.
    Chairman Schumer. From the Arizona Police.
    Mr. Pearce. Right, not a part of the bill.
    Chairman Schumer. I understand. Well, do you think dress is 
an inappropriate measure----
    Mr. Pearce. I think when a combination----
    Chairman Schumer [continuing]. Is a reason to stop somebody 
because of their dress? And then I would ask you, if it is not 
inappropriate, what does an illegal immigrant dress like?
    Mr. Pearce. Mr. Chairman, almost all--when you train a 
police officer--I have been in this business for a long time in 
law enforcement and public safety. It is a compilation of 
issues that tend to raise the level of suspicion to the level 
of probable cause, not any one isolated incident. This is just 
a list of things that lead you to ask questions. I know 
questions are a dangerous thing. People might actually give you 
an answer. So----
    Chairman Schumer. Sometimes questions are a dangerous thing 
because they lead to profiling, and it seems to me when the 
word ``dress'' is used--I mean, just give me--do you in your 
experience--you have lived in Arizona your whole life, I 
believe?
    Mr. Pearce. Yes, sir.
    Chairman Schumer. Do illegal immigrants dress any 
differently than----
    Mr. Pearce. Mr. Chairman----
    Chairman Schumer [continuing]. Legal immigrants or American 
citizens?
    Mr. Pearce. I do not want to be confrontational, Mr. 
Chairman.
    Chairman Schumer. No. I know.
    Mr. Pearce. But I want to tell you, this is a list of 
things to look for, and they are trained by ICE. This was ICE 
training in terms of a compilation, but it is like anything----
    Chairman Schumer. ICE did not----
    Mr. Pearce. No one issue does--if I am responding to a bank 
robbery or a Circle K robbery and I have got a description 
kicked out by radio of a white male, average height, white T-
shirt, dark pants, running down the street, I am responding to 
that crime scene and I see a white male, white T-shirt, dark 
pants, turns out to be jogging past, I stop him. I have a 
pretty good reason to ask him a few questions. When I get to 
the Circle K and I find out he is not the guy, he gets 
released. You have to respond to reasonable suspicion to do 
your job, Mr. Chairman.
    Chairman Schumer. My argument----
    Mr. Pearce. But this is just a list of things to look for.
    Chairman Schumer. First, I do not believe ICE sanctioned 
the use of the word ``dress.'' We will check that out. If they 
did----
    Mr. Pearce. I am just told that that is who they worked 
with in cooperation of developing that criteria, Mr. Chairman.
    Chairman Schumer. So let me ask you this question: Instead 
of going through these criteria and other criteria, why didn't 
you just say--and, again, the criteria are not yours. The 
Arizona police, as you say.
    Mr. Pearce. Yes, sir.
    Chairman Schumer. That is what we say up there, mandatory 
check. But why didn't you just say that everyone who is stopped 
by police has to be checked for legal immigration status? Why 
do you require the police to form opinions about whether a 
person is an illegal immigrant first before requiring police to 
ask that person for proof of legal status? Doesn't the way you 
wrote the law either require or certainly inveigh toward racial 
profiling?
    Mr. Pearce. Just the opposite, Mr. Chairman. Again, under 
federal law, you know--under the U.S. Constitution and the 
Arizona Constitution, we have the Equal Protection Clause. I 
knew those kinds of issues would be raised by those open-border 
folks that are against any enforcement. We have been sued on 
everything we have done from voting fraud, to stop voting 
fraud, welfare fraud, to going after illegal employers who 
compete illegally and immorally and have a competitive 
advantage over the honest employer. It does not seem like--no 
matter what we do, Mr. Chairman, we are attacked for simply 
enforcing the law and trying to protect American citizens and 
jobs for Americans. So you knew those questions would be asked. 
You knew they would come after you. We simply wrote the bill to 
preempt those kinds of silly arguments and try to protect--try 
to protect everybody's rights. As a civil libertarian, I am a 
believer that everybody--you have to have a reason to do stuff. 
I do not want a police state. I want a reason to do something. 
That is why those--that is why that bill was written in the 
manner it was written.
    Chairman Schumer. So let me ask you again. Why wouldn't it 
have done just what you say, rule of law, not discriminate, why 
wouldn't it have been better to say that everyone stopped by 
the police should be checked for their status? Why come up with 
obviously a really problematic definition of suspicion? And you 
have seen in the regulations that it is problematic.
    Mr. Pearce. Well, Mr. Chairman, I do not agree that it is 
problematic. In Arizona, first of all, we made the proper 
exceptions. If you have an Arizona driver's license or a 
driver's license from a State that requires proof of 
citizenship or legal presence, you are automatically exempt 
from that. That is axiomatic at that point reasonably that you 
are legal. All we wanted to do in this bill is common sense.
    Chairman Schumer. Right.
    Mr. Pearce. You know, we teach our officers to have common 
sense. You know, respond to reasonable suspicion. Not 
everybody--you know, you stop somebody, I do not want to hold a 
family up while I am asking all kinds of silly questions when 
there is no reason to ask those kinds of questions. This was 
based on reasonableness, Mr. Chairman.
    Chairman Schumer. Well, I guess many would disagree with 
that----
    Mr. Pearce. I understand.
    Chairman Schumer. [continuing]. Including some on the 
panel.
    Let me ask you a question about minors. If a police officer 
stops a minor, what documentation is the minor supposed to show 
the police officer to prove that he or she is a U.S. citizen?
    Mr. Pearce. Mr. Chairman, it is a little different for 
minors, needless to say. They are not required--and if you are 
an adult, you are required under federal law to carry your 
indicia with you at all times, at all times under 8 U.S.C. 1304 
and 1306. You know, so, again, reasonableness is the thing. If 
there is not a reason to ask, officers are not going to ask.
    Chairman Schumer. Well let me ask you this: There is a car 
driving--there is an adult driving it. There are minors in the 
back seat. Now, the law allows the children to be checked, 
right?
    Mr. Pearce. Well, Mr. Chairman, at a certain age--and I am 
not recalling the age. At a certain age----
    Chairman Schumer. No, there is no age. Just all the 
children can be checked and should be checked under the law and 
its regulations. What are the children supposed to show?
    Mr. Pearce. Mr. Chairman, if they do not have ID, they are 
not supposed to show anything. You are not required to have ID 
unless you are a driver or, you know, in Arizona we allow 
children to go down and get an Arizona ID at any age if they 
have a parent----
    Chairman Schumer. So you think all--under this law, 
children, to prevent themselves from being sent to a detention 
center or whatever, would have to carry some kind of ID.
    Mr. Pearce. Mr. Chairman, that is not accurate.
    Chairman Schumer. Well, that is----
    Mr. Pearce. Mr. Chairman, there is a reasonableness again 
inferred. You know, you are taking the extreme, and I 
understand trying to make your point, but, Mr. Chairman, it is 
just not accurate, it is just not so.
    Chairman Schumer. Well, does the law say anywhere that 
children do not have to be checked when they are stopped in a 
car in the situation? I understand the law says the opposite.
    Mr. Pearce. Mr. Chairman, it gives--this law makes 
exceptions to law enforcement, you know, to make reasonable 
decisions based on the circumstances at the time. I suspect--
and, again, I think it is demeaning to law enforcement to 
assume they do not know how to do their job in a respectful, 
proper----
    Chairman Schumer. I want to go to ``demeaning to law 
enforcement'' because--I am just going to submit for the record 
Section 3B, and it does not list any exceptions at all.
    [The information appears as a submission for the record.]
    Mr. Pearce. Mr. Chairman, it is modeled after federal law.
    Chairman Schumer. Okay. Well, but there are no exceptions 
here. I do not believe federal law is based--I do not believe 
this is consonant with federal law.
    Mr. Pearce. Yes, sir.
    Chairman Schumer. Let me go to----
    Mr. Pearce. It mirrors federal law, Mr. Chairman.
    Chairman Schumer. Let us go to ``demeaning police.'' 
Doesn't your law permit any citizen of Arizona to sue any 
police department or any individual police officer who refuses 
to ask for immigration documents during a stop?
    Mr. Pearce. Mr. Chairman, let me correct you. It does not 
allow them to sue any individual law enforcement officer when 
they use the discretion that we give them under this law and 
other laws. That discretion has allowed the officer--and if you 
read the bill carefully, you will see that discretion. In fact, 
we give the officers----
    Chairman Schumer. But there is a right to sue.
    Mr. Pearce. Let me--I understand, Mr. Chairman.
    Chairman Schumer. So just explain that right to sue to 
everybody.
    Mr. Pearce. Yes, sir, and I will. But law enforcement has 
qualified immunity under this bill because we knew that they 
would be sued whether they do or they don't. What the lawsuit 
has done--that phrase in our founding document, ``We, the 
people''? In Arizona, we still believe in ``We, the people.'' 
We gave we, the people, the ability to sue their agency, their 
government, if they will, if they fail--have a policy--have a 
policy that limits or restricts the enforcement of our 
immigration laws as required under federal law. So, yes, sir, 
we do give citizens a right of----
    Chairman Schumer. It is up on the chart here. It says, 
``Any person who is a legal resident of this State may bring an 
action''--that is a judicial action--``an action in superior 
court to challenge any official or agency''--not just the 
agency but any official, that is the words of the statute--``of 
this State or county or city or town or other political 
subdivision of this State that adopts or implements a policy 
that limits or restricts the enforcement of federal immigration 
laws.''
    Now, John Smith could decide that Officer Jones has adopted 
a policy of not stopping the right people in John Smith's mind 
and sue, and that would be an actionable case to see how the 
court would decide it. And I just want to ask you this: Is 
there any other statute in Arizona that you are aware of that 
allows citizens to sue police officers for not enforcing a 
particular law?
    Mr. Pearce. My understanding, there are a couple, but let 
me explain----
    Chairman Schumer. I have not come across any, so you can 
submit them into the record. But I would state for the record I 
have not seen any. We checked that.
    Mr. Pearce. Okay. Mr. Chairman, again----
    Chairman Schumer. So I would ask you--I am just going to 
ask you this and then let you respond at some length. Why was 
this law singled out to allow this action? Isn't that demeaning 
to police officers? And----
    Mr. Pearce. Mr. Chairman----
    Chairman Schumer [continuing]. Just one other question, 
maybe the most important. Won't that push them to do things to 
protect themselves from a lawsuit that they believe they should 
not do? You can answer all of those.
    Mr. Pearce. And I am grateful for that chance to answer 
that. Law enforcement sat down with me to write that section, 
Mr. Chairman, and the ``official'' was interpreted as somebody 
in an official capacity to set policy, and that is why the 
qualified immunity is to the officer on the street where we 
give them the discretion to enforce this law.
    You know, law enforcement and attorneys sat down as we 
decided and mulled over that language. That was their language 
put in by them, comfortable language that they felt gave the 
officers the protection they need to have discretion, at the 
same time language that was more compelling to the city to 
eliminate. Sanctuary policies are illegal, Mr. Chairman. It is 
illegal under 8 U.S.C. 1644 and 1373 to have a policy that 
limits or restricts the enforcement of these laws. Not only are 
States not preempted, they are preempted from having a policy 
that preempts them under federal law. That is what this is 
about, making sure they do their job, taking the handcuffs off 
them, as you have stated and quoted me, and that is exactly 
what this is doing. And we gave them qualified immunity while 
enforcing this law and gave the citizens the right to hold 
their government accountable.
    Chairman Schumer. How does it square taking handcuffs off 
law enforcement and then allowing citizens to sue law 
enforcement because an average citizen with no experience in 
his or her judgment says they are not enforcing the law? It is 
sort of a contradiction, and I am just curious as to why on 
this particular law you wrote in that provision when it does 
not exist, I do not think, in any other Arizona statutes, but 
certainly not in the vast majority of law enforcement statutes? 
As somebody who has been a pretty pro-law and order, pro-police 
person in my career, the last thing police like is to be sued 
by citizens supplementing their own judgment.
    Mr. Pearce. Again, I do not want to, you know, take this 
into he said/she said back and forth, Mr. Chairman, but the 
truth is they helped write it. That was their comfort--that was 
language they were very, very comfortable with. They sat down 
with me. We sat with their attorneys and with the associations 
and wrote that language to make them comfortable. That is why--
and, again, Mr. Chairman, you know, this whole thing--you know, 
when you talk about no other bill--I do not know of any other 
law that brings me to Washington, D.C., in Arizona State law 
that requires me to defend the rule of law. I have not been 
here to defend the tough DUI laws that we have. I have not been 
here to defend the human smuggling laws that we have. I have 
not been called to Washington, D.C., to defend anything else. 
So you see why we have to be very careful when we wrote this 
and put those provisions in there? Mr. Chairman, we knew that 
we would be challenged by everybody in town for simply trying 
to enforce our laws and protect our citizens and protect jobs 
for Americans.
    Chairman Schumer. Okay. Well, thank you. I have one more 
area of questioning, but I do not see how it either protects 
police or protects you from being criticized to then allow 
citizens to sue the police because in their judgment they did 
not enforce it. But let us go to documentation.
    Mr. Pearce. Could I just----
    Chairman Schumer. Yes, please, you can answer that.
    Mr. Pearce. Mr. Chairman, that law is not--that piece has 
not been enjoined. Only four sections of SB 1070 have been 
enjoined. The other six are in place. That one is in place. We 
had not one lawsuit from the citizens. This runaway train that 
you are kind of painting a picture of, the citizens are going 
to jump up and look forward to suing their government, it has 
not happened. We do not have one lawsuit as of today because 
those policies have been eliminated in the State of Arizona.
    Chairman Schumer. But that is because the rest of the law 
has been enjoined if it is----
    Mr. Pearce. No, it has not----
    Chairman Schumer. If it goes back into effect, we will see 
citizens sue.
    Mr. Pearce. But, Mr. Chairman, that is not true. In the 
first part of SB 1070, it says you will not have a policy that 
limits or restricts the enforcement of these laws so the 
slightest degree--to the slightest degree. So there must be 
some compliance. Citizens are not running to the courts to sue.
    Chairman Schumer. Let me go to one final area of questions, 
and I appreciate my colleague, Senator Durbin, being patient 
here. There is another chart I want to put up behind me. Do you 
know how many forms of identification exist today that can be 
shown to prove your lawful status in the United States by 
federal law?
    Mr. Pearce. I do not know the exact number.
    Chairman Schumer. No, I did not either, so do not feel bad 
about that. But there are 53. The answer is that there are at 
least 53 documents that the Department of Homeland Security 
says will prove lawful status.
    Now, again, I am going to show you--those are the 53. You 
do not have to read them all. There are a lot of them. That is 
the point.
    Now I am going to show you your training manuals, the 
Arizona police training manuals, and it says the only documents 
are--much more limited, and I will read them: a U.S. passport, 
U.S. military DD214, U.S. military ID card, U.S. military 
dependent card, U.S. birth certificate, U.S. and State 
government employee ID cards, tribal ID cards, and driver's 
licenses. So there are just eight documents.
    Now, according to the law, if a legal immigrant shows--this 
is a legal immigrant, not illegal--any of these 45 other valid 
documents to police--this is according to your law--they have 
to be taken to an ICE facility to have their immigration status 
determined by a Federal Government official or wait on the side 
of the road for an ICE official, a federal official, to come 
before they can be released. Is that correct? That is what the 
law says, right?
    Mr. Pearce. No, that is not quite correct, Mr. Chairman. 
There is a 24/7 hotline that ICE has set up and also 287(g) 
trained officers who are trained--or if they are cross-
certified as federal agents can make determination for those 
purposes. It is usually a five-minute phone call on the phone 
to an ICE agent or a 287(g) trained agent, and there are 200-
something that are trained in Maricopa County alone, Maricopa 
County deputies. So it is a five-minute conversation on the 
telephone.
    Chairman Schumer. Well, I just want to submit for the 
record a statute of the police training manual again, Arizona 
police: ``If reasonable suspicion of unlawful presence exists 
and it is practicable (see below), call ICE, CBP, or a 287(g) 
officer to determine the immigration status of the person.'' 
So, in other words, you are not consonant with federal law. You 
are not helping federal law enforcement. In other words, if you 
are doing what you say you are doing in this statute, you would 
say these State police officers, if they saw any one of these 
53 documents, should be able to say, okay, that is ID and go on 
your way. But instead what Arizona does--and it does it in a 
lot of senses; this is just one little example--is it restricts 
the federal law and substitutes its own judgment. Isn't that 
correct?
    Mr. Pearce. Mr. Chairman, no, that is not correct. And, 
again, they have a hotline--these are guidelines, as most 
policy----
    Chairman Schumer. Yes, but----
    Mr. Pearce. These are guidelines for those officers, and 
then as you noticed, what you just read, then call. That is a 
24/7 line.
    Chairman Schumer. Why is it that the State police officer 
under your law can enforce some provisions that are allowed in 
federal law but not so many others? Isn't that--that is not 
helping the Federal Government enforce the law. That is 
supplanting your judgment and restricting the federal law.
    Mr. Pearce. Mr. Chairman, I respectfully disagree. That is 
not what it does at all.
    Chairman Schumer. Okay.
    Mr. Pearce. It simply gives them guidelines of documents 
that are acceptable on their face, and any other questions you 
have, you simply call ICE or a 287(g) trained officer. Again, I 
will repeat myself, and I hate to be too redundant here, but it 
is a five-minute conversation. It happens every day of the 
week.
    Chairman Schumer. Yes, but I am sure there are many other 
instances that are like the clip that Senator DeConcini showed 
where they have to be brought to a particular place, detained, 
and somebody else has to look at them. We will ask these other 
witnesses----
    Mr. Pearce. Mr. Chairman, we do that for----
    Chairman Schumer [continuing]. If they are familiar----
    Mr. Pearce [continuing]. DUI guys, too, and some--you know, 
that is an officer discretion.
    Chairman Schumer. Okay. Thanks.
    I have a few more questions for the other witnesses, but I 
have kept Senator Durbin long enough, so I am going to call on 
him now to ask some questions, and then I will go back.
    Senator Durbin. Thank you, Mr. Chairman. I appreciate your 
line of questioning.
    Let me start, if I might, with Senator Gallardo. There is 
an agency in Chicago. It is a charity. It is called Las Mujeres 
Latinas en Accion. It has been in business for over 20 years. 
It was established in the Hispanic neighborhoods of Chicago as 
a domestic violence shelter, primarily for new immigrants to 
this country and for the undocumented, so that if women and 
children were the victims of violence, they had a safe place to 
go. They had someone who would listen to them, counsel them, 
and refer them to law enforcement in those circumstances where 
perhaps the husband has been abusive to the mother/the wife and 
even abusive to the child.
    I have supported them throughout my time in office, because 
I do not believe any of us want to see that happen, and we want 
to do everything we can to stop those guilty of that type of 
crime.
    You talked about the impact of this law, this Arizona 
immigration law, on people living in Arizona. Could you tell me 
your opinion as to whether or not this law makes it easier or 
harder for an undocumented mother to come forward and to report 
to law enforcement domestic violence or even the abuse of her 
children?
    Mr. Gallardo. Definitely, Mr. Chairman, Senator. Senate 
bill 1070 has not even been fully enforced. I mean, there are 
still portions of it that have not been acted on, and the 
portions dealing with local law enforcement trying to enforce 
immigration--or forcing them to enforce immigration law--and 
just a real quick comment in regards to Mr. Pearce's comments 
in regards to law enforcement. The first lawsuit filed against 
Senate bill 1070 was a Phoenix police officer. We are talking 
an officer on the street who came forward spending his own 
dollars to file a lawsuit against the bill because of exactly 
these types of situations. The wall that is placed between law 
enforcement and the Latino community is there, and the law--
Senate bill 1070 has not even gone into effect, and there is 
already the wall there.
    So you have situations like women who are in a domestic 
violence situation who are too fearful of going to law 
enforcement and reporting their abuser because of the fear of 
them getting deported and separated from their kids.
    So, I mean, this law has not even been in effect, and we 
are already feeling the consequences. And it is unfortunate 
that you see women constantly--I work real closely with the 
Coalition Against Domestic Violence in the State of Arizona, 
and report after report of situations where women who are 
undocumented, who are in a relationship, are for the most part 
held hostage in their own home because of their fear of going 
to law enforcement. Senate bill 1070 has not even been put into 
effect, and we are already seeing this barrier.
    You ask any law enforcement officer in the State of 
Arizona, they will tell you the number one way for them to 
solve any type of crime is working real closely with the 
community. It is community policing. That is how they resolve 
crime. It is having folks going to law enforcement and 
reporting these types of crimes when they are victims or when 
they witness crimes. Unfortunately, Senate bill 1070 puts a 
wall right between law enforcement and the Latino community, 
and particularly with women suffering from domestic violence, 
too fearful to go to police to ask for help because of their 
fear of, one, being deported and, even worse, being separated 
from their kids, and that is their big concern.
    Senator Durbin. Or being charged under this law.
    Mr. Gallardo. Exactly.
    Senator Durbin. Because of a reasonable suspicion that they 
are in this country in undocumented status. So here is a 
mother, a wife, a victim of domestic violence, perhaps with a 
child who is a victim of child abuse or worse, who is fearful 
to come to the law to protect herself or her child because of 
this 1070.
    Mr. Gallardo. And, Mr. Chairman, Senator, we are pointing 
out an area in the law that--this is exactly why Governor 
Brewer denied the invitation. She cannot justify the very bill 
that she signed. It is these types of situations that if you 
ask her these questions, she cannot answer them, because it has 
put a very polarizing sense with law enforcement and the 
community. I mean, this wall that is placed in front of women 
or victims of crime that 1070 is really hurting these victims. 
And it is unfortunate, particularly in the cases of domestic 
violence where you have women who are just held hostage. They 
are in terrifying situations, and now we have a bill that has 
not even been fully enacted, and it is still already creating 
this huge wall.
    Senator Durbin. Thank you.
    Mr. Pearce, you published something on, I believe it was, 
May 24th of 2011 entitled ``Warning: The Nightmarish DREAM Act 
is back,'' and it was on the letterhead of BanAmnestyNow.com. 
It was a lengthy piece. ``It Is Back, Help Us Stop the DREAM 
Act'' was the title of it. And in one section of it, you 
suggested that the proponents of the DREAM Act talk about those 
who would be eligible as honor students and so forth. And you 
went on to say, ``What the pro-amnesty interests never show are 
the tens of thousands of criminals, drug dealers, human 
traffickers, and gangsters who are caught and sent back over 
the border each year, only to return time and time again. Help 
me stop the DREAM Act.''
    Mr. Pearce, have you read the DREAM Act?
    Mr. Pearce. Mr. Chairman, which version?
    Senator Durbin. Well, that is a correct statement. It has 
changed. But there has been one consistent thing throughout. 
The one consistent thing is people with a serious criminal 
record will never be eligible for the DREAM Act. Never. There 
has never been a version of the bill that I have been sponsor 
of that would allow anyone guilty of being criminal, drug 
dealer, human trafficker, or gangster to be allowed into the 
United States under the DREAM Act. Do you disagree with that?
    Mr. Pearce. Yes, I do to some degree because not all those 
are convictions. Not all those are convictions, Mr. Chairman. 
We are only talking about convictions that would be prohibited 
from it.
    Second, Arizona, the voters have voted 75 percent to not 
allow the DREAM Act----
    Senator Durbin. That does not answer my question, sir. I am 
asking you whether a person who has been convicted of drug 
dealing is eligible under the DREAM Act.
    Mr. Pearce. Convicted, Mr. Chairman, they probably would 
not be eligible under the DREAM Act. But the DREAM Act goes 
much farther, as you know. It is a form of amnesty within 
itself. You know, and, again, I do oppose the DREAM Act. I will 
make it very clear, Mr. Chairman. And, again, Mr. Durbin, these 
are always difficult issues, Mr. Durbin. All of us have a 
heart, and all of us have compassion. But laws that have no 
consequences are no laws at all.
    Senator Durbin. So let me ask you this: If you were 
speeding down the highway and had your infant in a car seat in 
the back seat, and you were pulled over and charged with 
speeding, should that infant get the ticket, too?
    Mr. Pearce. Mr. Chairman, that is not--Mr. Durbin, I do not 
follow that analogy at all.
    Senator Durbin. No one should because----
    Mr. Pearce. It does not happen.
    Senator Durbin. Well, I will tell you how it happens. It 
happens when an infant is brought to the United States and the 
parents do not file the papers. The infant did nothing wrong. 
The infant has lived here its entire life and graduated high 
school and now wants a chance to earn its way into legal 
status, and you are saying because the parent did not file the 
papers, now the child must suffer.
    Mr. Pearce. Mr. Durbin, if I might respond. You know, 
again, you need to blame those responsible and not us for 
having it be a Nation of laws. I have met with these students 
at ASU. I have met with a bunch of them that are in that 
status. And we even shared some tears together. Some of those 
are wonderful kids. And I do not how you carve out--because the 
way this bill works, it is always a blanket to everybody. It 
does not carve out individually. It is a blanket amnesty for 
those folks.
    There are exceptions that I think the law allows, certain 
exceptions of the law, but those ought to be carefully executed 
exceptions, Mr. Durbin.
    Senator Durbin. Mr. Pearce, Mr. Pearce, the DREAM Act is 
not blanket amnesty.
    Mr. Pearce. Yes----
    Senator Durbin. You have to earn your way into legal 
status.
    Let me introduce you to another one of your neighbors from 
Arizona. I would like you to get to know him a little bit here 
while you are at this hearing. His name is Oscar Vasquez. He 
grew up in your home State, spent his high school years in 
junior ROTC. He entered a college-level robot competition 
sponsored by NASA. He was competing against students from MIT 
and other top universities. He won first place.
    In 2009, Oscar graduated from Arizona State University with 
a degree in mechanical engineering. Not exactly a criminal, 
drug dealer, human trafficker, or gangster. He was one of the 
top three students in his class.
    Let me tell you what happened after he graduated and 
realized he could not be licensed as an engineer because he is 
undocumented. His parents brought him here as a child. He has 
no legal status in this country. He went back to Mexico. And 
while he was in Mexico, the Obama administration granted Oscar 
a waiver to re-enter the United States. Now, at any time before 
he left for Mexico, he could have been pulled over under your 
law, under Senate bill 1070, reasonable suspicion, maybe the 
way he dresses or the fact that he may have an accent. Without 
the waiver from the Obama administration, Oscar would have been 
barred from returning to the United States for at least 10 
years and separated from his wife, Carla, and their two-year-
old daughter, Samantha, who live in Arizona and are American 
citizens.
    Well, the good news is he was given the waiver. He came 
back to the United States. He is an example of a DREAM Act-
eligible person. Do you know what he did when he came back to 
the United States, Mr. Pearce? I am about to tell you. He 
immediately enlisted in the United States Army. He completed 
basic training, and then he was sworn in as an American 
citizen. Today Oscar is serving our country and his country, 
the United States of America, in Afghanistan.
    Now, you have criticized the DREAM Act as ``some liberal 
dream of creating an American military staffed with foreign 
soldiers.'' Do you consider Oscar Vasquez a foreign soldier?
    Mr. Pearce. Mr. Durbin, you know, Oscar is a good story to 
use. The exception was made. That is exactly what I am talking 
about. Those exceptions ought to be carefully thought out and 
not just a blanket amnesty or support.
    There is a cost to the American taxpayers for all this. You 
know, if you want to make exceptions, I am okay with the proper 
exceptions, and I think Oscar is probably one of those that met 
all the criteria that any American would be proud. And 
certainly I am proud that he would join the military, proud 
that he would defend the Nation he wants to be a part of. Those 
are good things, Mr. Durbin. Do not take----
    Senator Durbin. Be careful. It does look like you are 
getting close to the DREAM Act here.
    Mr. Pearce. That is right. I am not in favor of a blanket 
amnesty approach to the DREAM Act or anything else. There are 
costs of hundreds of millions of dollars.
    Senator Durbin. I have got to get you away from----
    Mr. Pearce. I am talking about the----
    Senator Durbin [continuing]. The cliches----
    Mr. Pearce [continuing]. Exceptions that are appropriate. 
We have them.
    Senator Durbin. Mr. Pearce, you were in the legislature. I 
have got to get you away from the cliches to actually read the 
bill.
    Senator DeConcini, these stories about your fellow Arizona 
residents, you must know many yourself, families that are going 
through this. We are now reaching a point where these DREAM Act 
students are stepping up and self-identifying so people know 
who they are, what their dreams are, and what part they can 
play. You had the honor of representing the State of Arizona 
for so long. Can you put their stories in the context of your 
home State and this debate over Senate bill 1070?
    Mr. DeConcini. Well, Mr. Chairman, I will make an attempt 
to do that. Had I been here, I would have supported the so-
called DREAM Act. I supported immigration reform that is 
orderly, safe, and legal, and thus creates a pathway--not 
amnesty--a pathway to citizenship. There are numerous examples 
here of people--I serve on the Arizona Border of Regents. We 
govern the three universities, composed of eight appointed 
members. We have constantly had the problem of students coming 
to their presidents and some of them petitioning members of the 
Board of Regents to grant them some kind of an exemption, some 
way to stay in school. And our legislature put forward 
legislation that says they have to pay out-of-State tuition if 
they are going to stay in our universities and yet they may be 
deported under Senate bill 1070. It has caused immense pain and 
suffering in the Latino community. I know many of students 
caught up in this crisis.
    And, you know, as long as we are on the subject matter, my 
distinguished colleague, former Senator Pearce, will tell you 
this is not profiling. It is profiling. Police officers tell 
you it is profiling. They feel they have to profile. There are 
two county sheriffs-- located on the border with Mexico, Santa 
Cruz and Pima Counties. These two sheriffs are opposed to this 
bill. These two sheriffs are against it because it infringes on 
federal law, and they are not trained to enforce federal 
immigration law. The Secure Communities program that DHS has 
put in place has helped train them, but they refer people over 
when there is a violation of the law.
    So it is absolutely absurd to state that SB 1070 does not 
lead to profiling. This has become such a profiling issue in 
Arizona that two of our sheriffs, elected sheriffs, one in the 
largest county, is under investigation both criminally and 
civilly. The civil action is based on profiling. And that is 
the reality because people are being profiled.
    And, you know, you can talk about, well, that was not the 
intent. Maybe it was not the intent. ``Oh, I have got a heart, 
and we do not want to do that.'' But that is the fact. Imagine, 
two law enforcement officers duly elected enforcing this law 
are under investigation, one for criminal, one for criminal and 
civil, and the civil part is profiling, and the other one is 
misuse of the office. And I could tell you stories that would 
make your hair stand on end of public officials, including a 
superior court judge that was indicted because he opposed this 
particular sheriff, and two members of the Maricopa County 
supervisors who were indicted. That county attorney that 
indicted them with that sheriff has been disbarred in Arizona, 
and that sheriff is under investigation.
    So, you know, it has gotten so political, and if you talk 
out against some of the law enforcement people, you get 
arrested in Arizona. If you are judge and you rule against 
them--he brought a criminal action against a judge. All these 
actions were thrown out. All were thrown out. Maricopa County 
just settled a $1 million settlement lawsuit by one of those 
supervisors who sued after the case had been dropped the action 
of that prosecutor and because of that sheriff.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator. And I will just close. 
Thanks, Senator Schumer, for the extra time here.
    I want to echo his words as we did at our hearing on racial 
profiling. I have the highest respect for our law enforcement 
officials. The men and women who get up every morning and put 
that badge on and risk their lives for me, my family, my 
community, my neighborhood, my State, and this country deserve 
our respect. We do not help them in their job when we create 
laws like this which put them in a position of calling people 
out because of their status, not because of the suspicion they 
have even committed a crime. And that is not fair to them. It 
does not make their job any easier.
    Thank you, Mr. Chairman.
    Chairman Schumer. Thank you, Senator Durbin.
    I just have a few more questions, and these are to the 
other three witnesses.
    First, all of you are Arizona citizens and residents, 
right? Can you point out ways that illegal immigrants, 
undocumented immigrants, dress differently than other people? 
What does it say about the Arizona police when they say that is 
one of the things to look for?
    Mr. DeConcini. Mr. Chairman, if I could just comment, as a 
former Senator, a former prosecutor, native Arizonan, a mother 
who was a native Arizonan, I am embarrassed for my State. I 
apologize for Arizona's actions toward our Latino community, 
legal or illegal. This is not a way to treat people. So many of 
the religious organizations in our State, they have outreach 
programs. They do not ask whether or not you are an illegal 
immigrant. As Senator Durbin pointed out, the violence, 
domestic violence--for any other kinds of crimes, they do not 
ask, because that is what America is all about. And the Federal 
Government has the responsibility to enforce immigration laws.
    Thank you, Mr. Chairman.
    Chairman Schumer. Either Senator Gallardo or Mr. Landfried 
in terms of my question?
    Mr. Gallardo. Thank you, Mr. Chairman. Senate bill 1070 has 
been the worst piece of legislation ever passed in the State of 
Arizona. If you look at Section 3B that you were mentioning 
before, where reasonable suspicion exists that a person is an 
alien and is unlawfully present in the United States, 
reasonably suspicious, the only way to determine this--it is 
not by clothing. It is by the color of their skin, end of 
discussion. There is no way to enforce Senate bill 1070 without 
using race as the determining factor if someone is here 
legally. I would propose that if Mr. Pearce or myself were 
walking down the street and you asked law enforcement to pick 
out the person who they suspect would be here undocumented, 
they are not going to be pointing at Mr. Pearce. They are going 
to be pointing at me. They have to use race in order to enforce 
Senate bill 1070. That is the unfortunate part.
    And, Mr. Chairman, if Senate bill 1070 was so popular, why 
did the sponsor get recalled out of his own legislative 
district?
    At the end of the day, this bill is bad public policy by 
the State of Arizona. It has put a black cloud over the State 
of Arizona. It has given us a negative image that it is going 
to take us years to get out from underneath. It is poor public 
policy, Mr. Chairman.
    Chairman Schumer. The legislation, as you know, is before 
the Supreme Court tomorrow. We reached out to many Arizona 
officials. I will say this for Mr. Pearce. He was the only one 
who would come. If you believe in the law, if you voted for the 
law, if you are enforcing the law, why can't you come and 
defend it? But Mr. Pearce was the only one who would come. He 
has had his opportunity to make his case. Governor Brewer did 
not want to come. We reached out far and wide to incumbent 
officials who supported the law. No one would come--which says 
something, I think, about the law. But it also is to your 
credit, Mr. Pearce, that at least you have the integrity to 
come here.
    I wanted to ask Senator DeConcini, the clip you showed, 
which was powerful and moving, I take it that happens 
frequently.
    Mr. DeConcini. Mr. Chairman, I do not have factual 
information to give you a number. I am told----
    Chairman Schumer. But Mr. Pearce was sort of making it seem 
like it is an exception.
    Mr. DeConcini. I am told by law enforcement officials, the 
sheriff of Pima County has conveyed to me that, yes, that 
happens. And he feels that his deputies should not have to be 
put in a position of being liable if they should not ask 
somebody their immigration status.
    Chairman Schumer. Mr. Gallardo, are you familiar with how 
the law is being--well, it has not had much time to be enforced 
because it was enjoined, but----
    Mr. Gallardo. And, Mr. Chairman, I think that is the 
critical----
    Chairman Schumer. I think the clip was actually before the 
law was passed, right? Is that right?
    Mr. DeConcini. Mr. Chairman, it had passed both Houses, and 
the Governor signed it about three days later, but the intent 
was there, obviously, so law enforcement knew it was going to 
pass. The Governor had said she was going to sign it.
    Chairman Schumer. Go ahead, Senator Gallardo.
    Mr. Gallardo. Thank you. Mr. Chairman, I think that is the 
critical part of Senate bill 1070. It has not even been fully 
enacted. Yes, we are still already seeing the consequences over 
the last two years. We had Julio Mora, who was arrested, 
detained, he was brought in, and he is a U.S. citizen. These 
are situations after situations after situations. Juan Varela, 
a United States citizen who gets in an argument just days after 
Governor Brewer signs the bill, and violence occurs and Mr. 
Varela is dead over Senate bill 1070. These are unintended 
consequences that come from legislation when the State tries to 
fix what is ultimately a federal immigration problem and then 
forces law enforcement to try to enforce it. And then there are 
penalties against any law enforcement officer who does not 
enforce it, and----
    Chairman Schumer. Are you familiar with any other statute 
in Arizona, you or Senator DeConcini, where a private citizen 
can sue because the individual officer was not enforcing the 
law?
    Mr. Gallardo. Not one. Not one, Mr. Chairman.
    Mr. DeConcini. Mr. Chairman, I have not done the research, 
but I served as a county attorney there. I knew of no laws at 
that time--that was way back in the last century, I must say, 
and I have not read every law, but I talk to police officers 
all the time. I know of no other law. Perhaps there are some, 
but I do not know of any.
    Chairman Schumer. We could not find one. There may be one 
or two, but it is certainly the exception to the rule.
    Mr. DeConcini. Mr. Chairman, it is the exception if there 
is.
    Chairman Schumer. If there is, yes.
    Mr. Pearce, you get the last word before I conclude here.
    Mr. Pearce. Okay. Thank you, Mr. Chairman. I get a little 
disappointed, you know, that we are the bad guys for enforcing 
the law. First of all, Proposition 200 passed in 2004 
overwhelmingly by the citizens of the State of Arizona. That 
also has that right of action for citizens to sue their 
government if they are giving out benefits to those that are 
not eligible.
    Chairman Schumer. What is that one, Mr. Pearce?
    Mr. Pearce. Proposition 200, known as----
    Chairman Schumer. Is that an immigration law?
    Mr. Pearce. It deals with photo fraud, and the purpose was 
to have your ID at the polls and no benefits for those in the 
country illegally, and that right of action is in that bill.
    Chairman Schumer. And did that allow law enforcement 
explicitly to be sued? I do not think so.
    Mr. Pearce. It was just the benefits. And, again, Mr. 
Chairman--and I do not mean to argue with you, but I will 
correct you again. Law enforcement helped write that section. 
It had nothing to do with suing law enforcement. They got 
qualified immunity in that bill, qualified immunity to enforce 
the law. It has to do with officials who are in the policy-
setting position and agencies that set those policies.
    Chairman Schumer. Okay.
    Mr. Pearce. But I am a little disappointed when folks talk 
about being embarrassed for the State of Arizona. Two to one 
across this country, we have a national crisis, and yet 
everybody wants to ignore that the cost of the damage, the 
crime, and if we can go through this--and if I had the time and 
Mr. Chairman would allow the time, I could give you a lot more 
information. Instead, these little anecdotal things that we 
pick out a victim that said, you know, because all of us are 
disappointed when inappropriate action is taken on anybody. 
This bill--and, again, illegal is a crime, not a race. It does 
not pick out any nationality. It just so happens 90 percent of 
those who violate our immigration laws come from across that 
southern border or are Hispanic. You know, this law does not 
pick those out. I mean, common sense, if I have got three young 
kids in the middle of Sun City at three o'clock in the morning, 
I do not care what color they are. They are going to get 
stopped and questioned. Kids do not live in Sun City. Three 
o'clock in the morning is another element. I mean, just a 
little common sense.
    Mr. Chairman, we have a national crisis, and yet we 
continue to ignore it. There are some that run for office and 
talk about building a darn fence, but never hear it again once 
they are elected. I think Americans are a little tired of the 
drive-by statements by politicians instead of dealing with the 
issue at hand, enforce our laws, secure our border. It is not 
too much to ask, Mr. Chairman.
    Chairman Schumer. We have made big progress in that 
direction, sir.
    Let me conclude----
    Mr. Pearce. We have made some, Mr. Chairman.
    Chairman Schumer [continuing]. By saying this. First, let 
me thank the witnesses. I am sure it did not escape notice that 
none of my colleagues on the other side of the aisle came to 
this hearing. That is not surprising. They are absent from this 
hearing just as they have been absent from every attempt we 
have made to negotiate a comprehensive solution to our 
immigration problem. We need people to sit down, people on both 
sides of the aisle in a bipartisan way, and solve this problem. 
We have been unable to find negotiating partners. And so the 
absence of people here today not only shows an unwillingness, 
both in Arizona and here in Washington, of them to defend this 
law or be associated with this law, but it shows an absence of 
an ability--it is broader. We do not have anyone sitting down 
and saying here is what we want to do to solve this immigration 
problem. We get a lot of rhetoric out there on the campaign 
trail, but we do not get any action, even if they would 
disagree with the kind of proposal that I and my colleagues 
have made to do that. And so they are not here. It is not 
surprising. It has been typical in terms of being absent on the 
entire immigration debate except in terms of rhetoric, 
sometimes, unfortunately, very inflammatory.
    With that, I am going to close this hearing and thank our 
witnesses. I just have to do a little housekeeping here. The 
record will remain open until Tuesday, May 1, 2012, for further 
testimony and questions. I would like to thank individuals and 
groups for submitting testimony for the record. Without 
objection, it will be added. That includes the U.S. Conference 
of Catholic Bishops, the American Immigration Council, the 
Rights Working Group, and the American Civil Liberties Union. I 
am asking unanimous consent these statements be inserted into 
the record, and my colleagues have until May 12th to put in 
statements as well.
    [The information appears as a submission for the record.]
    Chairman Schumer. I thank the witnesses again, and the 
hearing is adjourned.
    [Whereupon, at 11:49 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                 Prepared Statement of Hon. Dick Durbin

          Prepared Statement of Ranking Member Chuck Grassley

  Prepared Statement of Russell Pearce, President, BanAmnestyNow.com, 
                             Mesa, Arizona


   Prepared Statement of Dennis W. DeConcini, Partner, DeConcini, 
             McDonald, Yetwin & Lacy, P.C., Tucson, Arizona


 Prepared Statement of Hon. Steve M. Gallardo, Arizona State Senator, 
                            Phoenix, Arizona


   Prepared Statement of Todd Landfried, Executive Director, Arizona 
           Employers for Immigration Reform, Phoenix, Arizona


       Miscellaneous Additional Material Submitted for the Record



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
